CERTIFICATION
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,636 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 23, 2020

Elie Ian Herman
Counsel of Record
WILSON ELSER MOSKOWITZ
EDELMAN & DICKER, LLP
150 East 42nd Street
New York, NY 10017
(212) 915-3000
elie.herman@wilsonelser.com

Counsel for Amicus Curiae

